      U.S. GOVERNMENT
      U.S.  GOVERNMENT

G-    PRINTING OFFICE
      PRINTING
      KEEPING
                  OFFICE
      KEEPING AMERICA
              AMERICA INFORMED
                      INFORMED
                                                                                      Robert C.
                                                                                      Robert C. Tapella
                                                                                                Tapella
                                                                                             Public Printer




     June 7, 2010


     The Honorable
          Honorable Charles
                    Charles E. Schumer
                               Schumer
     Chairman
     Chairman
     Joint Committee on
                     on Prínting
                        Printing
     318 Russell
         Russell Senate Office Building
                               Building
     Washington,  DC 20510
     Washington, DC   20510

     Dear Mr. Chairman:
     Dear


     In accordance     with 44
         accordance with    44 U.S.C.
                                U.S.C. 3903
                                       3903 and
                                             and the
                                                  the relevant
                                                       relevantprovisions
                                                                provisions ofthe
                                                                           ofthe Inspector
                                                                                  Inspector
     General Act
     General    Act of
                     of 1978,
                        1978,asasamended,
                                  amended,I Iam
                                              amtransmitting
                                                   transmittngtotoCongress
                                                                   CongressthetheSemiannual
                                                                                  Semianual
     Report
     Report of of the Office
                      Offce ofthe
                             ofthe Inspector
                                    Inspector General
                                              General (OIG)
                                                         (OIG) for
                                                               for the
                                                                   the U.S. Government
                                                                            Government
     Printing Office (GPO), covering the 6 month period of October
     Printing Offce (GPO), covering the 6 month period of      October 1,2009,
                                                                         1,2009, thtough
                                                                                  though
     March   31,2010, along
     March 31,2010,    along with
                              with the following  information as
                                        following information  as required
                                                                  required by
                                                                           by law.
                                                                              law. This
     letter meets
            meets my statutory
                      statutory obligation
                                obligation to provide
                                               provide comments
                                                       comments on the OrG's
                                                                         OIG's report
                                                                                report and
                                                                                       and
     highlights
     highlights management
                management actions     taken on the OIG's recommendations,
                               actions taken               recommendations, which
                                                                               which may
                                                                                      may
     relate
     relate to more than
                    than one  reporting period.
                          one reporting

     General
     General Comments
             Comments

     As provided
        provided for by law, this section offers my general
                                  section offers    general comments
                                                            comments on the OrG's
                                                                            OIG's
     semiannual
     semiannual report and report
                           operations. and operations. ..

      I. Management
          Management Challenges.
                         Challenges. InInmy myview,
                                                view,the
                                                       theorganizational
                                                           organizational and
                                                                           and technological
                                                                                technological
          transformation  that GPO began
          transformation that        began implementing
                                             implementing in 2003
                                                               2003 remains
                                                                      remains critical to the
          future    GPO. To carr
          future of GPO.       carryout
                                     outthat
                                         thattransformation
                                              transformation successfully,
                                                               successfully, in
                                                                              in this
                                                                                  this and
         previous   reports
         previous reports   the OIG  has  identified  several challenges
                                          identified several challenges   facing   GPO's
          management
          management that we are at various
                                       various stages of addressing.
                                                           addressing.

          1. Human
             Human Capital
                     Capital Operations
                             Operations and
                                         and Management:
                                             Management: Management
                                                            Management concurs
                                                                        concurs that
             Human
             Human Capital
                     Capital operations
                             operations and management
                                            management is and should be a top
             challenge
             challenge not only in GPO but
                                        but across the Federal
                                                       Federal Government.
                                                               Government.

               The process for hiring, as the Director of the
               The process for hiring, as the Director of    theOffce
                                                                  Office
                                                                      of  of Personnel
                                                                             Personnel
               Management
               Management has often noted,
                                        noted, is in serious
                                                     serious need of improvement
                                                                         improvement and the
               volume  and complexity
               volume and   complexity ofrequired
                                         ofrequired data
                                                      data elements
                                                           elements for each Federal
                                                                                 Federal
               employee
               employee is excessive
                            excessive by any standard.
                                                standard. The fact that the document
                                                                               document that
               describes
               describes in very
                            very brief
                                 brief detail
                                        detail the
                                               the form
                                                   form and format
                                                              format of all required
                                                                              required data
               elements  (The Guide   to Data   Standards)
               elements (The Guide Data Standards)          is 552    pages
                                                               552 pages    long shows   the level
                                                                                 shows the
               of complexity.
                  complexity.


     732
     732 North Capitol
               Capitol Street,
                       Street, NW
                               NW               Washington, DC 20401
                                                Washington, DC 20401   202-512-1000
                                                                       202-512-1000     rtapelJa~gpo.gov
                                                                                        rtapelJa@gpo.gov
The Honorable
    Honorable Charles
              Charles E.
                      E. Schumer
                         Schumer -- Page 2


      However,
      However, we realize    realize that withinwithin these
                                                          these constraints
                                                                  constraints much
                                                                               much can and is being
      done
      done at  at GPO
                   GPO to    to improve
                                 improve Human Human Capital operations           and management.
                                                                     operations and     management. In
      order to improve
                    improve the efficiency                     effectiveness of our operations
                                         efficiency and effectiveness                   operations we
      have    undertaken a number
      have undertaken                number of    of significant
                                                      significant initiatives.
                                                                     initiatives. At the outset of our
      change      process we tasked
      change process                  tasked GPO's
                                                 GPO's organizational
                                                            organizational architects
                                                                              architects toto conduct
                                                                                               conduct an
                                                                                                       an
      independent          review       and    analysis
      independent review and analysis of our operations.    of our  operations.   We    also involved
                                                                                              involved our
      customers
      customers and employees employees in a thorough  thorough review
                                                                    review of all
                                                                                all aspects
                                                                                    aspects of our
      operations.
      operations. We      We thenthen used       that information
                                         used that      information to begin
                                                                          begin aa top-to-bottom
                                                                                     top-to-bottom
      redesign
      redesign       and   restructuring
                            restructuring        of  our   operations.   We   have    recently reorganized
                                                           operations. We have recently         reorganized
      Human
      Human Capital
                  Capital with an emphasis   emphasis on ensuring
                                                                ensuring that
                                                                           that all
                                                                                all of our processes
                                                                                             processes are
      designed
      designed around around robust
                                  robust quality
                                             quality control
                                                         control measures,
                                                                   measures, specific
                                                                               specific measures
                                                                                          measures ofof
      accountability at both the employee and organizational level,
      accountabilty  at both the  employee and organizational                          level, and
      involvement
      involvement          and
                  and review  fromreview
                                    outside offrom outside of Human CapitaL. Capital.

      Wenow
      We nowhave
             haveongoing
                  ongoing weekly
                           weekly Financial
                                   Financial and
                                             and Human  Capital vulnerability
                                                 Human Capital  vunerabilty
      assessment   meetings that
      assessment meetings    that involve
                                  involve key
                                           key staff
                                                staff from
                                                       fromboth
                                                           both organizations.
                                                                 organizations. As
      part ofthis new
                  new process
                       process we
                                we have
                                    have drafted
                                          drafted a plan to regularly
                                                             regularly sample
                                                                       sample a
      significant portion of all key entries
      significant portion            entries affecting
                                             affecting employee
                                                         employee data at the
      National  Finance Center
      National Finance               within our time
                         Center and within        time and attendance
                                                            attendance system
                                                                        system
      (WebTA).
      (WebTA).

      At the strategic
             strategic level, earlier this year we conducted     business case
                                                    conducted a business
      presentation
      presentation for all of our senior   managers on the
                                   senior managers       the need
                                                             need for a
      comprehensive     workforce planning
      comprehensive workforce       planning process.
                                              process. Following
                                                        Following those
                                                                   those
      presentations
      presentations we developed          distributed detailed
                         developed and distributed    detailed workforce
                                                               workforce data and
      then conducted
           conducted meetings               senior management
                       meetings with the senior    management of each business
                                                                         business
      unit within
           within GPO to discuss
                           discuss and begin
                                         begin to plan
                                                   plan for a GPO-wide
                                                              GPO-wide Human
                                                                         Human
      Capital
      Capital Strategic Plan.

      To ensure that we stay on track          track with our
                                                            our Human
                                                                Human Capital
                                                                        Capital improvements
                                                                                 improvements we
      have
      have    committed
           committed            to the establishment
                     to the establishment  of               of regular
                                                               regular customer
                                                                       customer service surveys
      and specific
             specific measures
                          measures of     of accuracy
                                              accuracy and
                                                         and timeliness.
                                                              timeliness. These three metrics
                                                                                        metrics
      wil
      will bebe used
                  used as as the
                              the basis for all   all Human
                                                      Human Capital
                                                               Capitalperformance
                                                                       performanceplans.
                                                                                      plans. Weare
                                                                                              Weare
      also committed
             committed to the establishment
                                        establishment of an internal
                                                                 internal quality
                                                                          quality assurance
                                                                                  assurance
      program
      program that will    wil allow
                                  allow us  us to
                                                to evaluate
                                                    evaluate programs
                                                             programs and processes
                                                                            processes across
      Human
      Human Capital.
                  Capital. Finally,
                                Finally, we   we are
                                                   are continuing
                                                       continuing to work with the
      organizational         architects
      organizational architects to ensure thatto ensure  that we
                                                              we can
                                                                  can maximize
                                                                       maximize our
                                                                                  our efficiencies
                                                                                      effciencies
      through
      through the use of continual                process improvement
                                   continual process       improvement approaches.
                                                                          approaches.

  2. Information
  2. Information Technology
                 Technology Management  andSecurity:
                            Management and  Security:

          Compliancewith
      a. Compliance
      a.             with the
                           the Federal Information
                                       Information Management  Security Act
                                                   Management Security  Act
          (FISMA): GPO has continued to make progress
          (FISMA):                                       complying with
                                             progress in complying
The Honorable
    Honorable Charles
              Charles E. Schumer
                         Schumer -- Page 3


          FISMA. As the OIG report states, each of the 21 recommendations
          FISMA. As the OIG report states, each of

                           recent FISMA
          provided by the recent  FISMA compliance
                                         compliance assessment
                                                    assessment will
                                                                wil remain open
          unti fully
          until fullyimplemented
                      implemented by
                                   by management
                                      management and
                                                 and evaluation by the OIG.

      b.    Implementation
      b. Implementation of           of the Federal
                                               Federal Digital
                                                            Digital System:
                                                                    System: There have been
            numerous        incremental
            numerous incremental               production
                                 production builds (sprints or builds (sprints or increments)
                                                                                   increments) as part
                      agile development
            of our agile       development methodology.
                                                    methodology. TheseThese builds
                                                                             builds have
                                                                                     have been driven
            by the addition
                      addition of collections,
                                        collections, which which in
                                                                  in turn
                                                                     turn drives
                                                                          drives completion
                                                                                  completion of
                                                                                              of
           Release
           Release 1.    1.

          GPO initially
          GPO      initially estimated
                                estimated that   that 55 55 collections
                                                             collections were
                                                                           were available
                                                                                  available on on GPO
          Access to
          Access      to be
                          be migrated
                               migrated to    to FDsys.
                                                  FDsys. All contentcontent has been
                                                                                  been accounted
                                                                                         accounted for
                                                                                         \   \
          during the migration process.    process. The    The differences
                                                                  differences in
                                                                               in the
                                                                                   the cun'ent
                                                                                       current
          numbering and naming
          numbering               naming of content  content collections
                                                                 collections can be attributed
                                                                                       attributed to the
          way content            grouped and processed
                  content is grouped                   processed within
                                                                      within FDsys,
                                                                             FDsys, as has been been
          detailed previously,
          detailed     previously, most  most recently
                                                   recently at the  the FDsys
                                                                        FDsys program
                                                                                program review
                                                                                            review
          conducted in April.
          conducted            ApriL. FDsys
                                          FDsys currently
                                                       currently contains
                                                                     contains 29
                                                                              29 of 41 FDsys
          collections, representing
          collections,       representing over 90% of the GPO Access            Access content,
                                                                                         content, and all
          collections will
          collections       wil bebe inin FDsys
                                           FDsys after  after the
                                                                the completion
                                                                    completion of the Group 5
          collections development.
          collections       development. The      The collections
                                                          collections remaining
                                                                         remaining represent
                                                                                      represent smaller
                                                                                                  smaller
          collections       in volume
          collections in volume             and
                                and in usage,  with in
                                                     the usage,
                                                         bulk of   with the bulk of the collections
                                                                                           collections and
         relevant GPO
         relevant      GPO Access
                                Access data data currently
                                                    currently available
                                                                   available on FDsys.
                                                                                  FDsys.

                       developed a detailed
          GPO has developed               detailed tasktask list and a schedule
                                                                       schedule has been created
              Release 1 completion
          for Release        completion activities.
                                                activities. The tasks and schedule
                                                                             schedule were
          developed with
          developed      with full support
                                       support fromfrom the
                                                          the FDsys
                                                               FDsys Chief
                                                                      Chief Architect,
                                                                            Architect, FDsys
                                                                                       FDsys
          Integration Manager,
          Integration     Manager, and   and thethe FDsys
                                                      FDsys development
                                                              development team.
                                                                            team. The execution
                                                                                       execution
          of
          of thisschedule
             this schedule       will
                          wil allow for allow    for the
                                        the completion of  completion of Release
                                                                          Release 1 by the end
                                                                                           end
          of
          of this fiscal year.

          Our    intent
          Our intent is to is  toFDsys
                            make    makeGPO's FDsys
                                               system of GPO's system of recordrecord after all GPO
         Access       content      had     been    migrated
         Access content had been migrated to and when there    to  it, and  when    there is assured
                                                                                             assured
          access capability
          access     capability in     in the
                                            the event
                                                  eventof  ofsystem
                                                              systemfailure.
                                                                        failure. Access
                                                                                  Access will
                                                                                           wil be
                                                                                                be assured
                                                                                                    assured
          through the stand
         through              stand up up of a continuity-of-operations
                                                    continuity-of-operations (COOP)  (COOP) capability,
                                                                                               capabilty.
          Through our ongoing
         Through                ongoing Risk  Risk Review
                                                       Review Process,
                                                                 Process, we identified
                                                                                 identified a timing
                                                                                               timing risk
          with implementing
         with     implementing aa full        full failover
                                                     failovercapability
                                                               capabilty (i.e.,
                                                                            (i.e., COOP),
                                                                                   COOP), which
                                                                                              which will
                                                                                                      wil
         not
         not bebe    complete
                 complete  until lateuntil
                                      2010. To                    mitigate this risk, we are building
                                              late 20 10. To mitigate                            building
         aa Continuity
             Continuityof      of Access
                                   Access (COA)  (COA) capability
                                                            capabilty forfor FDsys at at the legislative
                                                                                             legislative
         branch alternate
         branch       alternate computing
                                      computingfacility  facilty (ACF).
                                                                  (ACF). This
                                                                            This capability
                                                                                   capability will
                                                                                               wil
         provide       effective
         provide effective            failover ofthe
                             failover of                 the data
                                                             data access
                                                                   access functionality
                                                                            functionality ofFDsys,
                                                                                             ofFDsys,
         meeting the requirements
         meeting              requirements we have identified   identified to establish
                                                                                establish FDsys
                                                                                            FDsys as the
         system
         system of    of record.
                           record.      The deployment
                                   The deployment  of            of this COA site substantially
                                                                                       substantially
         reduces our risk while
         reduces                     while providing
                                                providing a high
                                                               high level of service
                                                                                 service to Congress
                                                                                             Congress
         and
         and thethe   public
                  public          and
                          and allows GPO allows      GPO to begin sunsetting
                                          to begin sun                                GPO   Access.
                                                                            settng GPO Access.
The Honorable
    Honorable Charles
              Charles E.
                      E. Schumer
                         Schumer -- Page 4


          Critical    FDsys data,
          Critical FDsys       data, including
                                      including content,
                                                 content, metadata,
                                                            metadata, source
                                                                        source code, and
          documentation
          documentation from the       the FDsys
                                           FDsys development,
                                                   development, test, and production
                                                                             production
          instances,          currently backed
          instances, are currently        backed up
                                                  up offsite
                                                      offsite to
                                                              to the
                                                                 the Alternate
                                                                      Alternate Computing
                                                                                 Computing
          Facility.
          Facility. Implementing
                        Implementing continuity
                                          continuity and failover for FDsys
                                                                         FDsys in this
          phased
          phased approach,
                     approach, consisting             completion of COA
                                   consisting of the completion         COA followed
                                                                              followed by
          thecompletion
          the  completionof     of the full COOP    failover instance
                                            COOP failover     instance in late 2010,
          provides
          provides continuity
                        continuity of access
                                         access to historic
                                                   historic and
                                                             and new
                                                                  new content,
                                                                       content, with the
          abilty
          ability toto recreate
                        recreate the
                                   the full system  from backups.
                                            system from    backups. TheThe COA
                                                                           COA capability
                                                                                  capability
          wil
          will be
                be operational
                     operational in in August
                                        August 2010 and the full system
                                                                     system failover
                                                                             failover
          capability
          capability will wil be
                               be operational
                                  operational inin December
                                                   December 2010.

          rssues
          Issues identified           through Program
                      identified through           Program Tracking
                                                                Tracking ReportsReports (PTRs)
                                                                                          (PTRs) are
          reported and corrected based on the severity of the issue.
          reported and corrected based on the severity of                               issue. In terms
                                                                                                  terms of
                                                                                                         of
          system
          system       quality,
                  quality, of       of the 1,284       PTRs reported
                                              1,284 PTRs        reported since since FDsys was launched,
                                                                                                   launched,
          62 represent
               represent issues issues thatthat were
                                                 were determined
                                                         determined to      to be
                                                                                be "critical"
                                                                                   "critical" to the
          operations
          operations  of     of the
                                 thesystem.
                                       system.
                                             All of All of these
                                                             theseissues   have have been
                                                                      issues                  resolved. The
                                                                                       been resolved.
          vast majority
                  majority of outstanding
                                     outstanding PTRs  PTRs are a result  result of processing
                                                                                     processing
          inconsistent
          inconsistent data     data being
                                       being migrated
                                                migrated from from GPO GPO Access.
                                                                                Access. As stated in the
          April     program review,
          April program            review, the data migration
                                                           migration activities
                                                                            activities have
                                                                                         have been more
          complex
          complex than   than originally
                                  originally estimated.
                                                  estimated. We also have adopted very high
          quality
          quality      standards
                   standards           formigrating
                              for the data  the datainto migrating
                                                         FDsys. As such, into FDsys. As such,any    any issue
          found in the migration
          found                migration process
                                               process is logged
                                                              logged as a PTR.   PTR. This process
                                                                                              process is
          reviewed regularly
          reviewed        regularly at content
                                             content migration
                                                         migration designdesign reviews
                                                                                   reviews as well as in
          our regular Change Change Control Board     Board meetings.
                                                                meetings.

          Regarding the open recommendations
          Regarding            recommendations from
                                                 from the
                                                       the Quarterly
                                                           Quarterly iv
                                                                      IV& &V
          reports
          reports on FDsys,
                     FDsys, a process
                               process has
                                       has been
                                           been put
                                                put in place
                                                       place to assist in the
          closure
          closure of these
                     these recommendations
                           recommendations and is in use.

      c. Other
          OtherChallenges:
                    Challenges: There
                                  Therewere
                                        were two
                                              two primary
                                                  primary issues
                                                            issues in the PURL
                                                                          PURL
          system     failure. One was an IT
          system failure.                 rT infrastructure
                                             infrastructue failure
                                                             failure and
                                                                     and the
                                                                         the other
                                                                             other was
          a loss of
          a loss of   the Persistent Uniform   Resource  Locator   (PURL)
                          Persistent Uniform Resource Locator (PURL)        database.

         The PURL
         The  PUR database
                      databaseisison
                                   onthe
                                      thesame
                                          same infrastructure
                                                infrastructure hardware
                                                                hardware that
                                                                           that had
         supported   Microcomp     unti we migrated
         supported Microcomp until we migrated        this critical application
                                                                    application to a
         new infrastructure  called Itanium,
              infrastructure called  Itanium, which
                                              which is now
                                                         now operational
                                                               operational and
         replicated at the
         replicated    the ACF.
                           ACF. TheThe PURL system had not yet been migrated
                                                                           migrated
         off the old
                  old infrastructure.
                      infrastructure. A component
                                          component in inthe
                                                          theold
                                                               oldinfrastructure
                                                                    infrastrcture
         failed.
         failed. We
                  We were
                       were able
                             able make
                                  make aa repair with parts that
                                                              that we maintain
                                                                        maintain in
         inventory          days. However,
         inventory in 2-3 days.    However, the infrastructure
                                                  infrastructure failure
                                                                   failure resulted
                                                                           resulted in
         data  loss from
         data loss from   the PURL    database
                                      database that then needed to be restored. The
                                                that then  needed    to be restored.
         database   restoration process
         database restoration    process that
                                         that had
                                              had been
                                                   been documented
                                                         documented years ago was
         flawed
         flawed and did notnot allow
                               allow GPO
                                      GPO to effectively
                                               effectively restore
                                                            restore the database.
The Honorable
    Honorable Charles
              Charles E.
                      E. Schumer
                         Schumer -- Page 5


            GPO contacted
                  contacted OCLC       assistance, which
                             OCLC for assistance,  which stepped
                                                         stepped in and helped
                                                                        helped
            restore the database.
            restore the database. This process
                                       process took several
                                                    several weeks.

            There
            There were a number
                             number of after-action
                                         after-action tasks that resulted
                                                                      resulted from this issue.
           First, a backup
           First,    backup system
                               system was created
                                             created for the
                                                           the infrastructure
                                                                infrastructure support
                                                                                   support for
           the
           the PURL database. This system stays available at all times. In the
                PUR    database.    This   system  stays    available    at all times.       the
            event of
            event  of an
                       an issue
                           issue with
                                  with the
                                        theproduction
                                             production infrastructure,
                                                          infrastrctue, the  the backup
                                                                                   backup isis
           invoked    immediately. Second,
           invoked immediately.         Second, the database backupbackup process
                                                                             process was
           corrected
           corrected    and  documented,     updating
                             documented, updating      the   old   and  erroneous
                                                                        erroneous procedure.
                                                                                      procedure.
           Finally, aa comprehensive       project to replace
                        comprehensive project         replace the the PURL
                                                                       PUR datebase
                                                                                datebase was
                                                                                           was
           initiated  and is
           initiated and    is underway.
                               underway. This
                                            This project
                                                  project will
                                                            wil allow
                                                                  allow GPO
                                                                          GPO to host the
           PUR
           PURLapplication
                    applicationoutside
                                  outsideofofGPO,
                                               GPO, providing
                                                     providing aamodernized
                                                                       modernized application
                                                                                       application
           and complete
                complete failover
                             failover capabilities
                                       capabilties by
                                                    by the
                                                        the host
                                                              host provider.
                                                                     provider. The new
           capabilty
           capability isisexpected
                           expected toto be
                                         be launched
                                             launched this summer,
                                                              summer, allowing
                                                                           allowing us to
           sunset   the existing
           sunset the    existingPURL
                                   PUR system.
                                           system. Additionally,
                                                     Additionally, GPO'sGPO's library
                                                                                  library and
                                                                                           and IT
                                                                                                IT
           areas have initiated      comprehensive review
                         initiated a comprehensive      review of all library       program
                                                                          library program
           applications
           applications andand have
                                have developed
                                      developed a plan
                                                     plan toto upgrade
                                                               upgrade or  or replace
                                                                              replace allall of
                                                                                             of
           them      ensure continued
           them to ensure      continued operational
                                           operational capability.
                                                         capability. These projects
                                                                                 projects are
           now underway.
                 underway.

  3. Security
      Security and
                and Intellgent
                    Intelligent Documents:
                                 Documents: GPO'sGPO's Security
                                                        Security and
                                                                 and rntelligent
                                                                     Intelligent
      Documents (SID) business
      Documents           business unit continued
                                          continued to be the Federal
                                                               Federal Government's
                                                                       Government's
      leading provider
      leading  provider of secure
                            secure credentials       identity documents
                                    credentials and identity  documents in two
      secure production
      secure  production facilities
                           facilties located
                                      located in
                                               in Washington,
                                                  Washington, DC,
                                                               DC, and
                                                                   and Stennis,
                                                                        Stennis, MS.
                                                                                 MS.

       SID hashas made
                    made significant
                             significant progress
                                               progress on the audit recommendations
                                                                           recommendations that were
      made. To
      made.       To date
                       date SID
                              SID hashas mademade sure
                                                    sure that
                                                         that all
                                                               all secure
                                                                   secure passport
                                                                              passport materials
                                                                                         materials are
      properly      segregated        from     any  other
      properly segregated from any other GPO materials.    GPO    materials.       All stock
                                                                                       stock locations
                                                                                               locations are
      now being monitored
                       monitored by camera    camera and require
                                                            require a badge
                                                                          badge or code to enter the
      area. The
      area.     The access
                       access listlist is being
                                             being monitored
                                                    monitored by Security
                                                                     Security and  and SID
                                                                                        SID management
                                                                                              management
      to make
          make sure that   that only members
                                          members who  who have
                                                             have a need
                                                                       need to enter the area are
      authorized to
      authorized        to do
                            do so.
                                 so. Changes
                                       Changes have been made    made to the SID's  SID's Manager
                                                                                          Manager of
      Product Security
      Product      Security and Integrity
                                        Integrity position
                                                     position and the Secure Supply Chain
      Vendor Audit
      Vendor       Audit Program
                             Program has     has been
                                                 been documented
                                                       documented and    and formalized.
                                                                                formalized. The
      position      wasfrom
      position was moved   moved      from
                              oversight  of    oversight of the Operations
                                                                   Operations ManagerManager to the
      Managing
      Managing DirectorDirector of SID, with direct access    access to the Deputy Deputy Public Printer,
      to minimize
      to  minimize        any potential
                  any potential conflct of     conflict of interest.
                                                            interest.A newAManager
                                                                             newofManager of Product
                                                                                                   Product
      Security
      Security and Integrity
                           Integrity was hired  hired and begins
                                                           begins working
                                                                      working in the position
                                                                                          position in
      June.
      June. The roll-out and                implementation ofthis
                                    and implementation         ofthis improved
                                                                          improved audit
                                                                                       audit program
                                                                                              program
      wìl
      will be accomplished during the months ahead as the new Manager of
            be   accomplished          during     the months    ahead     as  the  new   Manager     of
      Product
      Product Security and Integrity    Integrity conducts
                                                    conducts visits to our key vendor locations. locations.
      In addition,
          addition, a detailed           process for all vendor
                            detailed process                vendor security
                                                                       security audits has been
      developed.        This    process
      developed. This process includes vendor includes  vendor    audit    procedures, trip
                                                                           procedures,     trip report
                                                                                                report
The Honorable
    Honorable Charles
              Charles E.
                      E. Schumer
                         Schumer -- Page 6


      procedures,   vendor risk analysis,
      procedures, vendor         analysis, long term
                                                term calendar
                                                       calendar of supplier
                                                                    supplier visits, and
      a trip
        trip approval
             approval procedure.
                       procedure. Additional
                                    Additional items
                                                items will
                                                        wil be
                                                             be addressed
                                                                addressed to ensure
                                                                              ensure
      that GPO's
            GPO's Acquisitions,
                   Acquisitions, General Counsel staff, and Security continue to
                                  General   Counsel   staff, and Security continue   to
      be involved   with the
          involved with   the overall
                              overall vendor
                                      vendor selection,
                                              selection, audit
                                                          audit requirements
                                                                 requirements as
                                                                               as part
                                                                                  part of
                                                                                        of
      the contracts,  and formal
           contracts, and  formal security
                                  security audits
                                            audits of
                                                   of our
                                                       our manufacturing
                                                            manufacturing facility.
                                                                            facilty.

      Regarding the security
      Regarding     security personalization
                             personalization system
                                             system (SECAPS),
                                                    (SECAPS), the
                                                                the audit
                                                                    audit of
                                                                          of
      SECAPS is anticipated
      SECAPS     anticipated to be
                                be completed
                                   completed sometime
                                              sometime in June 2010.

      SIDS plans
      SIDS plans to
                  to obtain
                     obtainISO
                             iso certification
                                 certification for the
                                                   the Stennis,
                                                       Stenns, MS,
                                                                MS, facility
                                                                     facility in the
      summer of2010;
      summer  of2010; the
                        the same
                            same certification
                                  certification for the Washington,
                                                        Washington, DC, passport
                                                                            passport
      production  facility is planned
      production facility     planned forfor FY
                                             FY 2011.
                                                2011. Additionally,
                                                       Additionally, 58
                                                                     58 audits
                                                                        audits
      continue    both the
      continue in both   the facilities,
                             facilties, with
                                         with scores
                                              scores of above 90%.
                                                              90%.

      GPO has
      GPO   has been
                 been working
                        working to
                                 toobtain
                                    obtaincertification
                                            certfication as
                                                          as aa producer
                                                                producer ofHSDP-12
                                                                          ofHSDP-12
      identification cards.
      identification  cards. In
                             In May
                                May 2010,
                                      2010, card samples passed
                                                             passed all external
                                                                         external
      laboratory tests.
      laboratory   tests. We are currently
                          Weare   currently waiting scheduling
                                                      scheduling from the General
      Services
      Services Administration's certifying body, and
                Administration's   certifying body,    and anticipate
                                                           anticipate certification
                                                                       certification in
                                                                                      in
      June 2010.
      June




      A Request
         Request for Proposal
                     Proposal was
                              was issued
                                    issued this
                                           this spring
                                                spring for passport
                                                            passport covers
                                                                     covers and
      associated materials. SID
      associated materials. SID is
                                 is reviewing
                                    reviewing the questions
                                                    questions and is ready to
      receive
      receive samples  from potential
              samples from  potential vendors
                                       vendors for testing.
                                                    testing.

  4. Internal
  4. Internal Controls:  Asnoted
              Controls: As  noted above,
                                   above, SID
                                           SIDhas
                                               has made
                                                    madesignificant
                                                         significant progress
                                                                     progress on
                                                                              on
      the audit recommendations
                   recommendations that  that were
                                              were made
                                                      made regarding
                                                              regarding controls
                                                                          controls over
      passport    supply chain
      passport supply      chain security.
                                   security. To
                                              To date
                                                   date SID
                                                          SID has made sure that all secure
      passport
      passport material
                  material is properly
                                properly segregated
                                          segregated from any other GPO materiaL.   material. All
      stock locations
               locations are now
                              now being
                                     being monitored
                                            monitored by   by camera
                                                               camera and require
                                                                             require a badge
                                                                                         badge or
      code       enter the
      code to enter    the area.
                            area. The
                                    The access
                                         access list
                                                  list is being monitored
                                                                  monitored by Security
                                                                                   Security and
      SID management
              management to  to make
                                 make sure
                                        sure that
                                             that only
                                                    only members
                                                           members who who have a need
                                                                                     need to
      enter        area are
      enter the area    are authorized.
                            authorized. Changes
                                           Changes have been made to the SID
      Manager
      Manager of   of Product
                      Product Security
                                Security and Integrity's
                                                Integrity's position
                                                                position and
                                                                          and the
                                                                               the audit
                                                                                    audit process
                                                                                          process
      has been
            been formalized.
                   formalized. TheThe position
                                       position waswas moved from oversight
                                                                         oversight of the
      Operations     Manager to
      Operations Manager         to the
                                    the Director
                                         Director of of Security
                                                        Security andand Intelligent
                                                                         Intellgent Documents
                                                                                      Documents
      to eliminate
      to  eliminate any    potential conflict
                      any potential    conflct ofof interest.
                                                     interest. In addition
                                                                     addition a detailed
                                                                                  detailed
      process
      process for all vendor
                         vendor security
                                   security audits
                                            audits hashas been
                                                            been developed.
                                                                   developed. This process
                                                                                       process
      includes
      includes vendor      audit procedures,
                  vendor audit    procedures, trip
                                                 trip report
                                                       report procedures,
                                                                procedures, vendor
                                                                              vendor risk
      analysis,         term calendar
      analysis, long term      calendar of supplier
                                             supplier visits,
                                                          visits, and a trip approval
                                                                             approval
      procedure.     Additional
      procedure. Additional        items  wil
                                          will be addressed to ensure that
                                               be   addressed     to ensure  that GPO's
      Acquisitions,
      Acquisitions, General Counsel staff,   staff, and
                                                     and Securìty
                                                           Security continue
                                                                      continue toto be
                                                                                    be involved
                                                                                        involved
      with the overall
                  overall vendor
                          vendor selection,
                                    selection, audit requirements
                                                         requirements as part of the
      contracts,
      contracts, andand formal
                        formal security
                                  security audits
                                            audits ofof our
                                                         our manufacturing
                                                              manufacturing facility.
                                                                                 facilty.
The Honorable
    Honorable Charles
              Charles E~ Schumer -- Page 7
                      E~Schumer


          Management
          Management concurredconcurred with KPMG'sKPMG's financial
                                                             financial statement
                                                                        statement audit
                                                                                   audit findings
                                                                                          findings
          and continues
                continues to recognize
                                    recognize the importance
                                                     Importance ofof internal
                                                                     internal control
                                                                              control over
                                                                                      over
          financial    reporting. Specific
          financial reporting.          Specific monthly   measures have
                                                 monthly measures      have been
                                                                             been implemented
                                                                                  implemented to
         ,properly     record and
         -properly record         andreview
                                         reviewproperty,
                                                 propert, plant
                                                           plant and
                                                                  and equipment
                                                                       equipment records,
                                                                                   records, new
          Oracle-based
          Oracle-based reports reports areare near
                                              near completion
                                                    completion which
                                                                 whichwill
                                                                         wil enable a more timely
          andaccurate
          and   accurate     reconciliation
                      reconcilation  of         of both  Accounts Payable
                                                   both Accounts     Payable and
                                                                              and GPO's
                                                                                  GPO's dtposit
                                                                                            deposit
          accounts,
          accounts, and finallyfinally supervisory
                                          supervisory review
                                                       review procedures
                                                                procedures are now in effect to
          help reduce the risk of any further cash      cash flow
                                                              flow statement
                                                                    statement misc1assifications.
                                                                               misclassifications.

                    Sensitive Information:
   5. Protection of Sensitive
   5. Protection of            Information: GPO
                                              GPO adopted two directives
                                                                  directives to
      formalize
      formalize a structure
                  structure for the protection
                                     protection of sensitive
                                                   sensitive information
                                                             information and to
      assign specific responsibilities.
                      responsibilities.

        GPO has modified
                       modified the forms forms used
                                                 used to procure
                                                         procure printing
                                                                   printing to require
                                                                                 require agency
        customers
        customers        to identify
                  to identify  printing  printing jobs
                                                  jobs that contain   PII. GPO
                                                            contain PII.    GPO is is in
                                                                                       in the
                                                                                          the process
                                                                                              process
       of roIlng
       of   roIling outout thethe updated
                                    updated forms for use
                                                        use by
                                                             by all
                                                                all agency
                                                                     agency customers.
                                                                               customers. Printing
                                                                                              Printing
       jobs identified
               identified as    as containing
                                    containing PH are subject
                                                        subject to special
                                                                     special handling
                                                                              handling to
       safeguard
       safeguard        the   PLI.
                              PlI. Print Procurement has developed and implemented
                                      Prínt Procurement   has developed      and  implemented aa
       standard       operating procedures
       standard operating              procedures governing
                                                   governing PII
                                                              PHeffective
                                                                    effectiveMayMay2010.
                                                                                       2010. A
       PH standard
              standard operating
                            operating procedure
                                          procedure (SOP)
                                                     (SOP) has
                                                             has been
                                                                 been distributed
                                                                         distributed to Print
                                                                                           Print
       Procurement          employees       and  wil
       Procurement employees and will be posted on   be posted  on   the Intranet.
                                                                          Intranet.

        GPO has prepared
                  prepared training
                            training to educate employees in how
                                        educate employees    how to identify and
        safeguard
        safeguard PH information. This course will become part of the recurring
                   PIT  information.  This course wil become            recurring
        training
        training requirement
                 requirement for appropriate  employees to maintain
                                  appropriate employees    maintain focus in this
        important
        important area.

        GPO has designated a Privacy Officer and is in the process of hirig
        GPO has designated a Privacy Offcer and is in the process of  hiring aa
        dedicated Program
        dedicated         Managerfor
                  Program Manager  for privacy.
                                       privacy. These
                                                These individuals
                                                        individuals will
                                                                    wil carry   out
                                                                         carr out
       the initial requirements of the PII directive
        the initial requirements of        directive to
                                                     to complete
                                                        complete an
                                                                  an inventory
                                                                      inventory of
                                                                                ofPII
                                                                                   PH
       data in use at GPO, review
                            review individual   business unit
                                    individual business  unit plans,
                                                              plans, and prepare
                                                                         prepare a
       plan to reduce the use of Social Security   numbers to the minimum
                                         Security numbers          minimum level
       required.
       required.

  6. Acquisitions
  6. Acquisitions and
                  and Print
                      Print Procurement:  Acquisition Services
                            Procurement: Acquisition   Services has
                                                                has contracted
                                                                    contracted
       with an outside
       with     outside vendor
                        vendor to
                                to provide
                                   provide an
                                           an independent
                                               independent assessment
                                                           assessment ofthe
                                                                       ofthe
       acquisitions function.
       acquisitions function. The
                               The findings
                                    findings of
                                             of the
                                                the assessment
                                                    assessment should be available
                                                                         available
       by September 30,2010.
                    30,2010.


       Management
       Management concurs
                     concurs with the finding
                                       finding on contract
                                                   contract administration
                                                             administration and is
       addressing
       addressing this concern
                       concern through
                                through training
                                         training provided
                                                  provided by the Federal
                                                                    Federal
       Acquisition
       Acquisition Institute
                   Institute and quarterly
                                 quarterly Acquisition
                                            Acquisition in-services
                                                         in-services training
                                                                     training where
The Honorable
    Honorable Charles E. Schumer
              Charles E. Schumer -- Page 88


       contract administration and
       contract administration andother
                                   otherspecific
                                         specificacquisition
                                                  acquisitionfunctions
                                                              fuctions are
                                                                       are
       addressed.
       addressed.

       As contracts
           contracts for various
                         various supplies
                                  supplies for passports
                                               passports are being
                                                              being renewed,
                                                                       renewed,
       Acquisition  Services will
       Acquisition Services   wil work with
                                         with SID and
                                                   and the
                                                         the Office
                                                             Offce of  of the General
                                                                              General
       Counsel     ensure that
       Counsel to ensure   that appropriate
                                appropriate security
                                             security language
                                                       language isis incorporated.
                                                                      incorporated. In
       addition, Acquisition Services
       addition, Acquisition  Services will
                                         wil begin
                                             begin reviewing
                                                   reviewing all supplier
                                                                    supplier contracts
                                                                               contracts
       to ensure that appropriate
                      appropriate security
                                   security language
                                            language is incorporated.
                                                          incorporated.

       Acquisition
       Acquisition Services continues
                               continues to work with various
                                                       various GPO business
                                                                      business units
       to ensure
          ensure that applicable
                       applicable contracts  meet sustainability
                                   contracts meet sustainability requirements
                                                                 requirements and
       wil
       will aggressively
             aggressively identifY
                           identify other procurements
                                          procurements where
                                                        where sustainable
                                                                sustainable initiatives
                                                                            initiatives
       can be achieved.
               achieved.

   7. Financial Management
   7. Financial  Management and Performance: As noted
                                Performance: As noted above,
                                                      above,management
                                                             management
       concurred with KPMG's
       concurred        KPMG's findings
                                   findings and
                                            and continues
                                                  continues to
                                                             to recognize
                                                                 recognize the
                                                                             the
       importance of internal
       importance     internal control
                                control over
                                         over financial
                                               financial reporting.
                                                          reporting. Specific
                                                                      Specific monthly
                                                                                 monthly
       measures  have  been  implemented     to  properly  record   and   review
       measures have been implemented to properly record and review property,     propert,
       plant and equipment
       plant                 records, new Oracle-based
                 equipment records,                          reports are near
                                             Oracle-based reports          near
       completion which
       completion   which will
                            wil enable
                                enable a more
                                          more timely
                                                 timely and
                                                         and accurate
                                                               accuratereconciliation
                                                                          reconcilation ofof
       both Accounts   Payable
             Accounts Payable    and  GPO's  deposit  accounts,    and  finally
                                              deposit accounts, and finally
       supervisory review
       supervisory  review procedures
                            procedures are
                                         are now
                                             now inin effect
                                                      effect to
                                                              to help
                                                                 help reduce
                                                                       reduce the
                                                                                the risk
                                                                                    fisk of
                                                                                         of
       any further cash flow
                         flow statement
                              statement misc1assifications.
                                          misclassifications.

   8.    Continuity
   8. Continuity of of Operations:
                       Operations:         Development
                                   Development of          of GPO's
                                                               GPO's continuity
                                                                       continuity of
         operations (COOP)
         operations (COOP) capabilities
                                 capabilties continues
                                                  continues as
                                                            as aa top
                                                                  top management
                                                                      management priority.

       During the reporting
       During                period GPO conducted
                   reporting period         conducted internal and external COOP
       exercises in accordance
       exercises    accordance with
                                 with an
                                       an annual
                                          annual exercise
                                                  exercise plan.
                                                            plan. These exercises
                                                                           exercises are
       designed to train
       designed     train GPO
                          GPO staffin
                               staffin the
                                        the required processes
                                                     processes and actions that
       would be needed during an an actual
                                     actual event
                                            event as
                                                  as well
                                                     well as
                                                           as identifY   further areas
                                                               identify further
           improvement. During
       for improvement.    During the
                                   the reporting
                                       reporting period our COOP activities
                                                                        activities
       focused on agency
       focused     agency command
                           command and and control
                                            control and mission
                                                          mission support
                                                                   support for
       Congress, the
       Congress,  the Office
                       Offce ofthe
                             ofthe Federal
                                    Federal Register,
                                              Register, and
                                                         and the
                                                              the State
                                                                  State Department.
                                                                         Department.

      rn support
      In  support oftheofthe Congress,
                                 Congress, GPO  GPO has
                                                      has formalized
                                                          formalized liaison roles for COOP
      planning       and coordination.
      planning and coordination.                                 have been
                                 Specific staff Specific staff have      been assigned
                                                                                  assignedprimary
                                                                                              primar
      responsibilities for
      responsibilities         for each
                                     eachchamber.
                                             chamber. These
                                                        These COOP
                                                                 COOPplanners
                                                                            planers work work with the
      appropriate GPO business
      appropriate                 business units
                                               units and congressional
                                                         congressional officesoffices to ensure that
      GPO's      planning
      GPO's planning            and
                     and exercise     exercise
                                  strategy is     strategy is well    aligned
                                                              well aligned with thewith   the needs of the
                                                                                    needs of

      House and Senate.
The Honorable
    Honorable Charles
              Charles E.
                      E. Schumer
                         Schumer -- Page 9


       GPO's IT
       GPO's    IT department
                   department continues    implement redundant
                              continues to implement redundant capabilities
                                                               capabilties for
                                                                            for
       COOP.     GPO's  Blackberr servers are now redundant between separate
       COOP. GPO's Blackberry servers are now redundant between separate
       facilities.

       One of the
       One of            complexities
                   the complexities  of          COOP is that
                                             of COOP           that the
                                                                      the Federal
                                                                           FederalGovernment
                                                                                    Governent uses
                                                                                                 uses an
                                                                                                      an
       "all hazards"
              hazards" approach
                            approach that requires
                                                 requires COOP          planners to prepare
                                                              COOP planners           prepare for a wide
       variety
       variety of of situations
                       situations       asofpart of the
                                   as par           the planning
                                                          planning process.
                                                                        process. In order to more
       closely track the readiness
       closely                    readiness level of GPO    GPO and its business
                                                                              business units for various
       COOP events,
       COOP       events, the COOP   COOP team team is instituting
                                                         instituting a maturity
                                                                            maturity level metric to
      'allow    stakeholders
      'allow stakeholders to easily to easily understand           the state
                                                 understand the current current
                                                                             of  state of preparedness
                                                                                          preparedness
       on an on-going basis.

   9. Strategic
       Strategic Vision
                     Visionand
                             andCustomer
                                  Customer Service:
                                              Service: InInMayMay2010,
                                                                    2010,senior
                                                                           seniormanagement
                                                                                   management
       developed
       developed a draftdraft update
                              update to GPO's
                                         GPO's Strategic
                                                    Strategic Vision,
                                                                Vision, which
                                                                         which had
                                                                                 had been
                                                                                      been
       previously
       previously issued      on December
                      issued on   December 4,   4, 2004.
                                                   2004. The
                                                           The draft
                                                                 draft document
                                                                       document provides
                                                                                   provides an
       update
       update to the situational
                         situational analysis
                                      analysis and identifies
                                                      identifies key
                                                                  key trends
                                                                       trends impacting
                                                                                impacting the
       development
       development and   and execution
                              execution ofof aa strategic
                                                strategic vision.
                                                            vision. In response
                                                                        response to theae
                                                                                      these
       trends,
       trends, senior    management also
                  senior management      also developed
                                               developed nine nine strategic
                                                                   strategic goals,
                                                                              goals, which
       include
       include but but are not limited
                                limited to the creation
                                                 creation of a customer
                                                                 customer service
                                                                             service culture,
       support
       support of of the current   Administration's transparency
                          current Administration's       transparency initiative,
                                                                         initiative, and
                                                                                     and aa
       continued     collaborative approach
       continued collaborative       approach toward
                                                  toward fiscal
                                                            fiscalresponsibility.
                                                                   responsibilty. The draft
       document
       document is pending
                        pending approval
                                  approval from executive
                                                     executive staff.

  10. Sustainable
      Sustainable Environmental
                   EnvironmentalStewardship:
                                    Stewardship: AsAs the
                                                       the largest
                                                           largest industrial
                                                                    industral
      manufacturer in the District
      manufacturer        District of Columbia,
                                       Columbia, GPO
                                                  GPO is committed
                                                            committed to
      environmental stewardship
      environmental  stewardship and
                                   and is focused
                                          focused on reducing
                                                      reducing manufacturing
                                                                 manufacturing
      waste
      waste and green-house   gasses, increasing
                green-house gasses, increasing    the use
                                                      use  of 100%    post-consumer
                                                                      post-consumer
      waste recycled
      waste recycled paper,
                      paper, and purchasing
                                 purchasing energy
                                              energy from sustainable
                                                             sustainable sources and
      products manufactured
      products manufactued using
                              using sustainable
                                     sustainable raw materials.
                                                      materials. This
                                                                   This commitment
                                                                         commitment
      complements   longstanding   environmental   practices
      complements longstanding environmental practices carriedcarried  out at GPO in
      compliance with applicable
      compliance       applicable Federal
                                   Federal laws and regulations.
                                                      regulations.

      GPOreaffirs
      GPO reaffirmsits
                    its commitment
                        commitment toto reducing
                                         reducing environmental
                                                  environmental impact
                                                                impact on
                                                                       on aa
      daily    basis by
      daily basis     by printing
                          printing the
                                     the Congressional
                                         Congressional Record
                                                          Record and
                                                                  and the
                                                                       the Federal
                                                                            Federal Register
                                                                                     Register
      using 100%
      using             recycled newsprint.
                100% recycled     newsprint. GPO has also made changeschanges in the print
                                                                                        print
      procurement
      procurement        practices  to allow customers    to specifY  certified sustainable
                                              customers to specify certified sustainable
      paper and is currently
      paper             currently evaluating    responses to a RFP
                                   evaluating responses          RFP for the most
      sustainable copier
      sustainable      copier paper
                               paper available
                                       available in today's
                                                    today's market.
                                                             market. The
                                                                      The evaluation
                                                                            evaluation
      criteria    included
      criteria included      the sourcing
                                 sourcing   of raw  materials,  post consumer    fiber
                                                    materials, post consumer fiber
      content,     use of renewable
      content, use of                   resources, use
                           renewable resources,     use of'bio-generation,
                                                        ofbio-generation, chain
                                                                              chain of
                                                                                     of
      custody, recyclability
      custody,      recyclabilty and
                                   and environmental
                                        environmental sustainable
                                                         sustainable packaging;
                                                                      packaging; chemicals
                                                                                    chemicals
      and fillers, carbon
                      carbon footprint,
                               footprint, waste generation,
                                                  generation, water consumption,
                                                                      consumption,
The Honorable Charles E. Schumer
    Honorable Charles    Schumer - Page
                                   Page i10
                                          0


      transportation,
      transportation, energy
                      energy consumption,     total green
                             consumption, and total green house
                                                          house gas (GHG)
                                                                    (GHG)
      emissions.
      emissions.

      GPO has
      GPO   has completed
                 completed aaprinting
                              printingindustry
                                       industr process
                                               process evaluation
                                                         evaluation and is
      developing a chemical
      developing     chemical inventory
                               inventory management
                                         management system
                                                        system that
                                                                thatwill
                                                                    wil manage
                                                                         manage the
      chemical inventory
      chemical   inventory of cleaning
                              cleaning supplies,
                                       supplies, paints
                                                 paints and solvents,
                                                             solvents, chemicals
                                                                       chemicals
      and oils, and
      and       and press chemicals and inks. The Phase 11 chemical
                                                             chemical database is
      in development
         development to standardize
                        standardize chemicals
                                    chemicals and solvents
                                                  solvents used throughout the ..
                                                           used throughout
      facilty,
      facility, with
                with additional
                      additional phases
                                 phases to
                                         to develop
                                            develop acquisitions processes and
                                                    acquisitions processes
      policy
      policy for sustainable
                  sustainable goods that reduce
                                           reduce energy
                                                  energy consumption,
                                                         consumption,
      environmental
      environmental impacts
                       impacts and increase
                                    increase economic   performance.
                                              economic performance,

      GPO has an agency-wide
                   agency-wide effort
                                 effort to
                                        to reduce
                                           reduce the
                                                   the amount
                                                        amount of landfill
                                                                    landfill waste
      leaving     facility. Over
      leaving our facility. Over the
                                 the past several months,
                                                    months, GPO has established
                                                                         established a
      voluntary
      voluntary partnership with EPA's WasteWise program to baseline and
                partership  with EPA's   WasteWise     program    to baseline   and
      monitor waste reduction
      monitor waste                  prevention activities.
                     reduction and prevention     activities. These
                                                              These efforts
                                                                     efforts diverted
                                                                              diverted
      nearly
      nearly 90% of GPO's landfill
                             landfill waste
                                      waste stream
                                             stream to
                                                     to new and
                                                              and existing
                                                                   existing recycling
                                                                             recycling
      streams  in 2008.
      streams in  2008. Based
                        Based on WasteWise's
                                 WasteWise's calculations,
                                             calculations, these
                                                            these actions
      resulted in the
      resulted in the reduction
                      reductionof ofover
                                     over15
                                          15billion
                                             bilion tons
                                                     tonsofGHG
                                                           ofGHG emissions.
                                                                   emissions. GPO
                                                                                GPO
      is also developing  criteria and requirements
              developing criteria      requirements to issue
                                                         issue a Total
                                                                 Total Waste
                                                                       Waste
      Management
      Management RFP RFP that
                          that will
                               wil consolidate
                                    consolidate waste hauling
                                                       hauling contracts
                                                                 contracts to achieve
                                                                              achieve
      the most favorable
                favorable rates and enhance        recycling efforts and landfill
                                     enhance our recycling
      reduction
      reduction initiatives.

      GPO requires
            requires all new
                          new construction
                              construction contracts
                                              contracts to  to recycle
                                                               recycle and mitigate
                                                                            mitigate
      landfill waste for
      landfill waste  for materials
                          materials that
                                     that leave
                                           leave our
                                                 our facility.
                                                         facility. GPO's efforts
                                                                          efforts have
                                                                                  have
      reduced
      reduced landfill
               landfiII waste by issuing      contract to ensure
                                   issuing a contract         ensure all of our wood
                                                                                wood
      waste  (pallets, skids
      waste (pallets,  skids and
                             and old
                                  old furniture)
                                       furniture) isis recycled.
                                                        recycled. Currently,
                                                                    Currently, GPO's
      wood waste is being
                      being used for mulch in Maryland.
                                                  Maryland.

      GPO's roof project,
      GPO's roof                      completed in
                         project, completed            in Spring
                                                           Spring 2010,
                                                                      2010, will
                                                                              wil achieve
                                                                                    achieve energy
      conservation
      conservation for the agency     agency and utilizeutilize a bio-based
                                                                     bio-based ELMSELMS coating
                                                                                           coating that is
      Energy
      Energy      Star approved
             Star approved              with 0.77
                           with 0.77 reflectivity and a reflectivity
                                                        tested emissivity and
                                                                          of   a tested emissivity of 0.93
      under ASTM
      under     ASTM E409.  E409. The net result is a roof        roof that
                                                                          that reduces
                                                                               reduces the
                                                                                         the effect
                                                                                             effect of
                                                                                                    of
      summertime heat
      summertime           heat islands,
                                  islands, thereby
                                              thereby reducing
                                                           reducing air conditioning
                                                                             conditioning costs
                                                                                             costs and peak
                                                                                                       peak
      demand and
      demand       and providing
                          providing the   the opportunity
                                                opportnity to     to earn
                                                                      earn LEED
                                                                             LEED credit
                                                                                     credit under LEED
      Sustainable Sites.
      Sustainable

      GPO actively          participates in EPA's
               actively participates              EPA's sustainability
                                                          sustainability management
                                                                          management workgroup
                                                                                       workgroup
      and the CAO Green Council.      CounciL.GPO    GPOisiscurrently
                                                             currentlyseeking
                                                                       seekingpartnership
                                                                                parnership with
      other legislative         branch agencies
               legislative branch          agencies to ensure
                                                          ensure each
                                                                  each agency
                                                                        agency and Federal
                                                                                    Federal
      employee has ample opportunity
      employee                        opportunity to recycle
                                                          recycle and participate
                                                                       participate in
      sustainability        initiatives,
      sustainabilty initiatives,            regardless
                                 regardless ofthe size of ofthe size of the agency.
The Honorable
The Honorable Charles
              Charles E. Schumer
                         Schumer -- Page 11
                                         11


         Over the past
                   past year,
                        year, GPO
                              GPO hashas reduced
                                         reduced our
                                                  our volatile
                                                       volatile organic
                                                                organic compound
                                                                         compound
         (VOC)   emissions
         (VOC) emissions    in our  plant operations   by 86%   which
                                    plant operations by 86% which      also reduced
                                                                            reduced our
         purchasing
         purchasing costs       fountain solution
                     costs for fountain   solution by
                                                   by 22%.
                                                        22%. Our production
                                                                   production managers
                                                                               managers
         have been testing
                    testing new
                            new fountain
                                  fountain solution
                                            solution concentrates
                                                      concentrates that
                                                                    that contain
                                                                         contain no or
         low VOCs
              VOCs and have been successfuL.       Testing continues
                                      successful. Testing   continues on other press
         solvents    hopes to
         solvents in hopes  to further
                               further reduce
                                        reduce our
                                                our environmental
                                                    environmental footprint.
                                                                     footprint. GPO's
         paint shop has converted to to exclusively
                                        exclusively using
                                                     using zero- VOC office paints
                                                           zero- VOC
         throughout
         throughout the building.
                         building.

   Audits and
   Audits andInspections.
              Inspections. During
                            Duringthe
                                   thereporting
                                       reporting period,
                                                 period, the
                                                          theOIG
                                                              OIG issued
                                                                  issued 66 new
                                                                             new
   audit and assessment reports, with
             assessment reports, with recommendations
                                      recommendations to help
                                                         help improve
                                                              improve
   operational performance:
   operational performance:

   •·    FederalDigital
        Federal  Digital System
                         System (FDsys)
                                 (FDsys) Independent
                                         Independent Verifcation
                                                      Verification and
                                                                   and Validation
                                                                       Validation
         (IV&V)
         (IV &V) - Ninth
                     Ninth Quarter
                            QuarterReport
                                      Report on onRisk
                                                   Risk Management,
                                                        Management, Issues,
                                                                         Issues, and
                                                                                 and
         Traceability (Assessment
         Traceability    (AssessmentReport
                                         Report10-01,
                                                 10-01,December
                                                         December2,2009).
                                                                      2,2009). This
         assessment
         assessment continued
                       continued the ongoing iv   IV&&V V evaluation
                                                          evaluation associated
                                                                       associated with the
         development ofFDsys.
         development      ofFDsys. This
                                      This evaluation
                                            evaluation provides
                                                        provides quarterly
                                                                   quarterly observations
                                                                              observations
         and recommendations
              recommendations on the FDsys  FDsys program's
                                                    program's technical, schedule,
                                                                            schedule, and
                                                                                       and
               risks, as well
         cost risks,     well as
                               as related
                                  related issues.
                                           issues. This quarterly
                                                         quarterly report
                                                                    report identified
                                                                            identified a
         number of technical
         number                  risks associated
                      technical risks   associated with
                                                    with FDsys
                                                          FDsys configuration
                                                                  configuration
         management and risk
         management           risk management
                                   management activities.
                                                   activities. The report contains
                                                                            contains 11
                                                                                      11
         recommendations       designed to
         recommendations designed         to strengthen
                                             strengthen these
                                                          these activities.
                                                                activities. As the OIG's
         report
         report notes,
                 notes, management
                         management generally       concurred with
                                        generally concurred     with the recommendations
                                                                          recommendations
         and has either taken or proposed
                                    proposed responsive     corrective actions.
                                                responsive corrective

  •     Financial Statement Audit
  · Financial Statement                 Audit (Audit
                                                 (Audit Report
                                                           Report 10-02,
                                                                   10-02, January
                                                                            January 8,2010).      Title
                                                                                     8,2010). Title
        44, U.S.C.,
              U.S.C., requires
                          requires that GPO obtain     obtain an annual
                                                                  annual audit of its financial
                                                                                       financial
        statements,
        statements,       which
                    which the       the OrG
                              OIG oversees.       oversees.
                                            The audit of       The audit of GPO's
                                                                              GPO's FYFY 2009
                                                                                           2009
        financial     statements was
        financial statements            was conducted
                                               conducted by  by KPMG.
                                                                 KPMG. KPMG
                                                                          KPMG issued an
        unqualified
        unqualified opinion
                          opinion on GPO's  GPO's financial
                                                       financial statements,
                                                                 statements, stating
                                                                               stating the
                                                                                        the financial
                                                                                             financial
        statements
        statements were  were fairly presented,
                                           presented, in all material
                                                                 material respects,
                                                                          respects, and in
        conformity
        conformity with   with generally
                                  generally accepted
                                                 accepted accounting
                                                             accountingprinciples.
                                                                          principles. KPMG
                                                                                        KPMG
        identified         significant deficiencies:
        identified 2 significant            deficiencies: financial     reporting controls
                                                              financial reporting   controls and
        information        technology general
        information technology               general and and application
                                                             application controls.
                                                                           controls. As the OIG
        report
        report notes, KPMG made recommendations  recommendations for each condition;
                                                                                 condition;
        management
        management concurredconcurred with   with those
                                                    those recommendations
                                                           recommendations and has   has either
                                                                                          either
        planned
        planned or initiated responsive
                                      responsive corrective action.

  •                                            Information Security
        GPO's Compliance with the Federal Information
  · GPO's Compliance with the Federal                      Security Management
                                                                    Management
        Act
        Act (Assessment Report 10-03, January 12,2010). FISMA mandates
            (Assessment    Report 10-03,  January  12,2010). FISMA   mandates
        security
        security measures
                 measures for the information
                                   information and information
                                                    information systems
                                                                systems that
        support  the operations
        support the  operations and
                                andassets
                                     assetsof
                                            ofexecutive
                                               executivebranch
                                                         branchagency.
                                                                agency.As
                                                                        Asaa
The Honorable
    Honorable Charles
              Charles E. Schumer
                         Schumer -- Page 12
                                         12


       legislative      branch agency,
       legislative branch          agency, GPO is not   not covered
                                                             covered by FISMA
                                                                           FISMA but recognizes
                                                                                         recognizes
       the need
             need to be  be compliant
                              compliant because
                                              because ofthe
                                                       ofthe services   it provides
                                                               services provides      to executive
                                                                                          executive
       branch
       branch     agencies.
              agencies. A baseline A  baseline
                                   assessment of  assessment of GPO's
                                                                   GPO's compliance
                                                                            compliance waswas
       conducted in 2007.
       conducted            2007. GPO GPO completed
                                               completed a full assessment
                                                                  assessment in 2009, whichwhich
       concluded
       concluded        that  although some progress had been made compliance there
                              although       some  progress   had  been  made    in compliance
             stil weaknesses
       are still   weaknesses that    that can
                                             can be
                                                 be identified,
                                                     identified, some of them dating to the 2007
       report. This
       report.     This report
                          report included
                                     included 21 21 recommendations
                                                     recommendations to strengthen
                                                                              strengthen GPO's
       compliance         with   FrSMA.
       compliance with FISMA. As the OIG       As the  OIG   report states,  each  ofthe 2121
       recommendations provided by the recent FISMA compliance assessment is
                  resolved and will
       considered resolved     wil remain
                                    remain open
                                           open pending follow-up by the
                                                                     the OIG.

   •· GPO
        GPO Network
                NetworkVulnerabilty
                               Vulnerability  Management
                                                Management(Assessment
                                                               (AssessmentReport
                                                                              Report 10-04,
                                                                                       10-04,
       January 19,2010). This assessment of GPO's
       January 19,2010). This assessment of                  GPO's network     vulnerabilty.
                                                                     network vulnerability"
       management
       management program   program focused        specifically on GPO's passport
                                          focused specifically              passport production
                                                                                      production
       system      environment and
       system environment              and public
                                             public facing
                                                    facing servers.
                                                            servers. As the OIG's report
                                                                                     report says,
                                                                                             says,
       this assessment          concluded
              assessment concluded            that GPO    implemented
                                                   GPO implemented robusta robust and  effective
       vulnerabilty
       vulnerability management
                            management programprogram that identifies
                                                             identifies and circumvents
                                                                             circumvents
       common
       common internal                   external network
                      internal and external       network threats
                                                            threats related
                                                                    related to both
                                                                                both the
                                                                                     the passport
                                                                                         passport
       printing
       printing and production
                           production systemsystem and
                                                    and public-facing
                                                         public-facing servers.
                                                                        servers. The OIG says
       that since theirtheir last assessment
                                     assessment thethe program
                                                       program has been
                                                                      been significantly
                                                                            significantly
       strengthened.
       strengthened.

  • Federal
  ·  FederalDigital
             Digital System
                     System (FDsys)
                             (FDsys)Independent
                                     Independent Verification
                                                  Verification and
                                                               and Validation
                                                                   Validation
      (IV &
      (iV  &V) - TenthTenth Quarter
                                Quarter Report
                                             Report on  onRisk
                                                            RiskManagement,
                                                                  Management, rssues,
                                                                                 Issues, and
                                                                                         and
      Traceability (Assessment
      Traceability        (Assessment Report  Report 10-05,
                                                          10-05, March
                                                                 March 24,
                                                                         24, 2010).
                                                                             2010). This report
                                                                                           report
      identified several
      identified      several technical
                                  technical risks
                                                risks associated
                                                         associated with
                                                                     with FDsys
                                                                          FDsys development
                                                                                  development
      practices, system engineering,
      practices,                 engineering, COOP,  COOP, existing
                                                               existing PTRs,
                                                                        PTRs, and the FDsys
                                                                                        PDsys test
      program. ItItcontained
      program.           contained 66 recommendations
                                            recommendations to      to mitigate risks and
                                                                                      and strengthen
                                                                                           strengthen
      program management.
      program       management. Three     Three of  of the
                                                        the recommendations
                                                            recommendations were subsequently
                                                                                       subsequently
      closed
      closed and and   three remained
                 three remained                unresolved
                                unresolved at the close of    at the close of the
                                                                              the reporting
                                                                                   reporting period.

  •· Security
         Security
              of       of GPO's       Passport Supply
                           GPO's Passport            Supply Chain
                                                              Chain (Audit Report
                                                                             Report 10-06,
                                                                                    10-06, March 31,
                                                                                                   31,
         2010).
         2010). This This    auditon focused
                     audit focused    the security on
                                                   of the security of passport
                                                                        passport components
                                                                                 components and
         supply     chain. The
         supply chain.         The audit
                                      audit disclosed
                                               disclosed that
                                                            that the passport supply
                                                                               supply chain process
                                                                                            process
         was largely        informal
                largely informal          and   made    recommendations
                                                made recommendations         to ensure continued
                                                                                ensure continued
         security
         security of of the supply
                                supply chain by establishing
                                                        establishing a formal
                                                                         formal security
                                                                                security oversight
                                                                                         oversight
        process.
        process. As    As thethe OIG
                                   OIG report
                                          report notes,
                                                    notes, GPO
                                                            GPO management
                                                                   management concurred
                                                                                 concurred with each
         of the recommendations
         of        recommendations and has either         either already
                                                                  already implemented
                                                                           implemented or planned
                                                                                           planned
        responsive
        responsive        corrective      actions.

  Prior
  Prior Period
          Period Outstanding
                  Outstanding Recommendations.
                               Recommendations. As     Asrequired
                                                           required by
                                                                    by law,
                                                                        law, this
  section
  section summarizes
           summarizes management's
                       management's actions
                                       actions to
                                                to address
                                                   address OIG
                                                            OIG recommendations
                                                                 recommendations
  still outstanding
  stil  outstanding from previous reporting
                    from previous reporting periods:
                                             periods:
The Honorable
    Honorable Charles
              Charles E. Schumer
                         Schumer -- Page 13
                                         13


   ·• GPO
       GPO Network
             NetworkVulnerabilty   Assessment
                       Vulnerability Assessment(Assessment
                                                  (Assessment Report
                                                                   Report 06-02,
                                                                           06-02,March
                                                                                  March
       28,2006). Two
       28,2006).    Tworecommendations
                        recommendations mademade in this report
                                                          report remain
                                                                     remain open.
                                                                            open. As
       the OIG  report notes,
           OrG report  notes, the most
                                  most recent
                                        recent Network
                                                Network Vulnerability
                                                         Vulnerability Assessment
                                                                           Assessment
       found that
       found  that implementation
                   implementation ofof corrective
                                       corrective actions
                                                  actions isis still
                                                                stil ongoing.
                                                                     ongoing.

   ·• Report
       Reportonon
                GPO's
                  GPO'sCompliance
                           Compliancewith
                                        withthe
                                              theFederal
                                                  FederalInformation
                                                           InformationSecurity
                                                                       Security
       Management Act
       Management     Act (FISMA)   (Assessment Report
                          (FISMA) (Assessment      Report 07-09, September
                                                                 September 27,
        2007). As
        2007). As the
                   the OIG
                       OIG report
                            report notes, management
                                          management continues
                                                         continues to work on
       implementing    corrective actions
       implementing corrective    actions for the 7 remaining
                                                    remaining open
       recommendations.
       recommendations.

   • Operating
   ·  OperatingSystem
                SystemSecurity
                       Security for
                                for GPO    Passport Printing
                                    GPO's'8Passport Printing and
                                                             and Production
                                                                 Production
        System (AssessmentReport
        System (Assessment Report08-06,
                                   08-06,March
                                          March31,2008).
                                                31,2008). One
        recommendation
        recommendation remains
                        remains open.

   ·• Diversity
       DiversityManagement
                       ManagementPrograms
                                       ProgramsatatGPO
                                                     GPO(Audit
                                                          (AuditReport
                                                                  Report08-10,
                                                                          08-10,September
                                                                                  September
        11,2008).
        11,2008). Two     Two recommendations      remain open.
                                recommendations remain     open. As the
                                                                      the OIG's
                                                                          orG's report
                                                                                 report
        states, management
        states,   management continues
                                    continues with
                                              with implementation
                                                   implementation of the remaining
                                                                           remaining
        essential
        essential     elements
                  elements of     of the Equal
                                         Equal Employment
                                               Employment Opportunity
                                                              Opportnity Commission's
                                                                           Commission's
       Management Directive
       Management            Directive 715
                                       715 and
                                           and the
                                               the leading
                                                    leading diversity  management
                                                            diversity management
       practices identified by the Government Accountability Office.
       practices       identified  by  the Governent   Accountability   Office.

   •· Assessment
       AssessmentofofGPO's
                      GPO'sTransition
                             TransitionPlanningfor
                                        Planningfor Internet
                                                     InternetProtocol
                                                              ProtocolVersion
                                                                       Version66
        (IPv6) (Assessment Report
        (IPv6) (Assessment Report 08-12,
                                  08-12,September
                                          September30,2008).
                                                     30,2008). One
       recommendation remains
       recommendation   remains open.

  •·    FederalDigital
       Federal  Digital System
                        System (FDsys)
                               (FDsys) Independent
                                       Independent Verifcation
                                                    Verification and
                                                                 and Validation
                                                                     Validation
        (IV &
            & V)
               V)-- Fourth Quarter Report
                    Fourth Quarter Report on
                                           on Risk
                                              Risk Management,
                                                    Management, Issues,
                                                                Issues, and
                                                                        and
        Traceability (Assessment Report 09-01, November 4,2008). As the OIG
        Traceabilty   (Assessment  Report  09-01, November  4,2008).
        report notes,
        report notes, 3 recommendations
                        recommendations remain
                                          remain open as management
                                                          management continues
                                                                       continues to
        work on implementing
                  implementing corrective
                                corrective actions.

  •· AuditAudit
           of     of GPO's        Passport Printing
                      GPO's Passport         Printing Costs
                                                       Costs (Audit
                                                             (Audit Report
                                                                    Report 09-02,
                                                                            09-02, December
                                                                                    December
         22, 2008).
               2008), One        recommendation      remains
                           One recommendation remains open, asopen, as the OrG    report notes, as
         management
         management is in the is      of process of revising
                                 in the
                              process               revising indirect cost rates.

  •·    FederalDigital
       Federal  Digital System
                        System (FDsys)
                               (FDsys) Independent
                                       Independent Verifcation
                                                    Verification and
                                                                 and Validation
                                                                     Validation
        (IV&V)
        (IV & V)-- Fifth QuarterReport
                   Fifh Quarter  Reporton
                                        onRisk
                                           Risk Management,
                                                Management, Issues,
                                                             Issues, and
                                                                     and
        Traceabilty (Assessment
        Traceability              Report 09-03,
                      (Assessment Report  09-03, December
                                                 December 24,
                                                          24, 2008).
                                                               2008). Four
        recommendations
        recommendations remain open.
 The Honorable
     Honorable Charles
               Charles E.
                       E. Schumer
                          Schumer -- Page 14
                                          14


     • Federal
     ·  FederalDigital
                Digital System
                        System (PDsys)
                               (FDsys) Independent
                                       Independent Verifcation
                                                    Verification and
                                                                 and Validation
                                                                     Validation
          (IV&V)
          (IV&V)-- Security
                    Security Analysis
                             AnalysisReport
                                      Report (Assessment
                                             (AssessmentReport
                                                          Report 09-04,
                                                                   09-04, December
                                                                          December
          24,2008).
          24,2008). Three recommendations remain open, as the OIG
                    Three  recommendations   remain  open, as  the OIG report
                                                                        report states,
                                                                               states,
             management continues
          as management  continues to take responsive
                                           responsive actions.
                                                      actions.

     • Federal
     ·  FederalDigital
                Digital System
                        System (FDsys)
                                (FDsys) Independent
                                         Independent Verification
                                                      Verification and Validation
                                                                       Validation
          (IV &
          (IV & V)
                V) - Sixth
                     SixthQuarter
                           Quarter Report
                                   Report on
                                           on Risk
                                               Risk Management,
                                                    Management, Issues,
                                                                  Issues, and
          Traceability (Assessment
          Traceability  (Assessment Report
                                     Report 09-07,
                                            09-07, March
                                                    March 20, 2009).
                                                               2009). Three
          recommendations remain
          recommendations            open, as the OIG report
                             remain open,             report states,
                                                             states, as management
                                                                        management
          continues to take responsive
          continues         responsive actions.

    •·    FederalDigital
         Federal  Digital System
                          System (FDsys)
                                 (FDsys) Independent
                                         Independent Verifcation
                                                      Verification and
                                                                   and Validation
                                                                       Validation
          (IV
          (iV & V) -- Seventh
                      Seventh Quarter Report
                                       Report on Risk Management,
                                                        Management, Issues,
                                                                       Issues, and
                                                                               and
          Traceabilty   (Assessment   Report  09-12,  September   30, 2009).
          Traceability (Assessment Report 09-12, September 30, 2009). As      As the
                                                                                  the OIG
                                                                                      orG
          report notes, the OIG made 25 recommendations
          report                           recommendations in this report.
          Management generally
          Management     generally concurred
                                    concurred with
                                               with all except
                                                        except for one and proposed
                                                                            proposed
          responsive   actions for each. At the end
          responsive actions for each. At the end ofof  the reporting
                                                            reporting period, 23
                                                                               23
          recommendations remain open.
          recommendations

    •· Accounts
        AccountsPayable
                 PayableService
                          ServiceBilings
                                  Billings(Audit
                                            (AuditReport
                                                   Report09-13,
                                                          09-13,September
                                                                 September 30,
                                                                             30,
        2009). One recommendation     remains  open. As  the
        2009). One recommendation remains open. As the OIG   OIG  report notes, the
        recommendation should
        recommendation   should be closed
                                   closed during the next reporting
                                                           reporting period.

    •· GPO's
         GPO's Workers'
                    Workers'  Compensation
                                CompensationPrograms
                                                Programs(Audit
                                                           (AuditReport
                                                                   Report09-14,
                                                                          09-14,
        September 30,
        September         30, 2009).
                              2009). One
                                      One recommendation
                                           recommendation remains
                                                             remains open
                                                                      open and
                                                                            and should be
        closed            of end of the next reporting
                   byendthe
        closed by the                                  period, as the OIG report notes.
                                             reporting period,

III. Investigations.
      Investigations. During
                        Duringthethereporting
                                      reporting period,
                                                 period, the
                                                          the OIG
                                                               OIG performed
                                                                     performed investigative
                                                                                 investigative
     work on procurement
               procurement fraud, workers'
                                      workers' compensation
                                                 compensation fraud,
                                                                   fraud, employee
                                                                          employee
     misconduct, and
     misconduct,    and other
                        other matters
                               matters including
                                         including theft,
                                                    theft, illegal
                                                            ilegal hacking,
                                                                    hacking, or requests
                                                                                requests for
     investigations by other legislative
     investigations            legislative branch
                                             branch agencies,
                                                     agencies, .in   some cases
                                                                 in some   cases resulting
                                                                                 resulting in
     evaluation for
     evaluation   for possible
                      possiblecivil
                                civil or
                                      or criminal
                                          criminal action
                                                   action byby the
                                                               the Justice
                                                                     JusticeDepartment,
                                                                             Departent, and
                                                                                          and
     in others in  proposals  for GPO     internal corrective
        others proposals for GPO internal corrective action.    action. These  activities
                                                                               activities
     demonstrated the
     demonstrated    the value
                         value ofOIG
                                ofOIG investigators
                                          investigators in
                                                        in protecting
                                                            protecting GPO from waste,
     fraud, and abuse.

IV. Statistical
IV. Statistical Tables.
                Tables.

    Statistical tables
    Statistical tables as required
                          required by law are enclosed.
                                              enclosed.
The Honorable Charles
The Honorable Charles E.
                      E. Schumer-
                         Schumer- Page
                                  Page 15
                                       15


       need additional
If you need
If           additional information  with respect
                        information with   respect to this
                                                      this report,
                                                           report, please
                                                                   please do not
hesitate
hesitate to contact
            contact Mr. Andrew
                        Andrew M. Sherman,      Director of Congressional
                                     Sherman, Director       Congressional Relations,
                                                                             Relations,
on 202-512-1991,
    202-512-1991, oror bye-mail
                       bye-mail at
                                 at asherman(£gpo.gov.
                                    asherrnan@gpo.gov.

Sincerely,
Sincerely,




ROBERT
ROBERT C. TAPELLA
               TAPELLA
Public
Public Printer
       Printer

Enclosures
Enclosures

cc: TheThe
cc:        HonorableRobert
        Honorable     RobertBrady,
                             Brady, Vice Chairman
                                         Chairman
       The Honorable
           Honorable Dan
                     Dan Lungren,
                          Lungren,Ranking
                                  Rankng Minority  Member
                                          Minority Member
       The Honorable
           Honorable Patty Murray
       The Honorable
           Honorable Tom Udall
       The Honorable
           Honorable Robert
                     Robert Bennett
                            Bennett
       The Honorable Saxby Chambliss
       The                 Chambliss
       The Honorable
           Honorable Michael
                     Michael Capuano
                             Capuano
       The Honorable
           Honorable Susan A. Davis
       The Honorable
           Honorable Kevin
                     Kevin McCarthy
                           McCarthy
 ENCLOSURE I
 ENCLOSURE




                           STATISTICAL
                           STATISTICAL TABLE
                                       TABLE FOR SECTION 5(b)(2)
                                                         5(b)(2) -- DISALLOWED
                                                                    DISALLOWED COSTS

                                                                              Number of
                                                                              Number of                    Disallowed Costs
                                                                                                           Disallowed Costs
                                                                            Audit Reports
                                                                            Audit Reports Questioned
                                                                                          Questioned               Unsupported
                                                                                                                   Unsupported
 A.
 A.          Audit reports
             Audit  reports for
                             for which
                                 which final
                                        final actionl
                                              action' had
                                                      had
             not been
             not  been taken
                       taken byby the
                                  the commencement
                                      commencement
             of the
             of the reporting   period
                    reporting period                                                   0                   0               0

             Audit reports
             Audit reports issued
                            issued during
                                    during the  period
                                            the period
             with potential
             with potential disallowed
                             disallowed costs
                                          costs                                        0                   0               0

             Total Costs
             Total Costs                                                               0                   0               0

B.
B,           Audit reports
             Audit   reports on
                              on which
                                 which management
                                       management
             decísions2 were
             decisions/   were made
                                made during
                                      during the
                                              the
             reporting period
             reporting   period

             (( i.)
                i.)    Dollar
                       Dollar value
                              value of disallowed
                                       disallowed costs
                                                  costs                                0               0                  0

             (ii.
             (ii. ))   Dollar
                       Dollar value
                              value of allowed
                                       allowed costs
                                               costs                                   0               0                  0

C.
C.           Audit reports
             Audit reports for
                            for which
                                which final
                                       final action
                                             action
             was taken
             was taken during
                        during the
                                the period,
                                    period, including:
                                             including:

             (( i.)
                i.)    Dollar value
                       Dollar value of
                                    of disallowed costs
                                       disallowed costs                                0               0                  0
                       that were
                       that were recovered    by management
                                   recovered by   management
                       through offsets
                       through   offsets against
                                         against other
                                                  other
                       contractor invoices
                       contractor   invoices or
                                              or nonpayment
                                                 nonpayment

             (ii.)
             (ii.)     Dollar
                       Dollar value
                              value of disallowed
                                        disallowed costs
                                                   costs                               0               0                  0
                       that were
                       that      written offby
                            were written  offby management
                                                 management

D.
D.           Audit reports
             Audit  reports for
                            for which
                                which no final
                                         final                                         0               0                  0
             action has
             action  has been
                         been taken
                              taken by the
                                       the end
                                           end
             of the reporting period
                the reporting period




i As defined by law, the term "final action" means the completion of
 I As defined by law, the term "final action" means the completion                           of all actions that
                                                                                                all actions  that the
                                                                                                                   the management
                                                                                                                       management of   of
an  establishment has
an establishment         has concluded,
                              concluded, in its        management decision,
                                                  its management         decision, are are necessary
                                                                                           necessary with
                                                                                                        with respect
                                                                                                              respect to
                                                                                                                       to the
                                                                                                                          the findings
                                                                                                                              findings
and   recommendations inc1uded
and recommendations             included in   in an
                                                 an audit
                                                      audit report,
                                                             report, and
                                                                       and inin the
                                                                                 the event
                                                                                      event that
                                                                                             that the
                                                                                                   the management
                                                                                                       management concludes
                                                                                                                       concludes no
action
action is is necessary,
             necessary, final
                            final action
                                    action occurs
                                             occurs when
                                                       when a management
                                                                   management decision
                                                                                     decision has
                                                                                                has been
                                                                                                     been made.
                                                                                                            made.
2 As defined by law, the term "management decision" means the evaluation by management of
2 As defined by law, the term "management                     decision" means the evaluation by management of the              the
findings and
findings     and recommendations
                  recommendations included  included in  in an
                                                             an audit
                                                                  audit report
                                                                         report and
                                                                                  and the         of
                                                                                        the issuance
                                                                                            issuance of a final     decision by
                                                                                                             final decision   by
management concerning
management         concerning its  its response
                                        response to  to such
                                                        such findings
                                                                findings andand recommendations,
                                                                                  recommendations,        including
                                                                                                          including actions
                                                                                                                      actions concluded
                                                                                                                               concluded
to be necessary,
to      necessary.
 ENCLOSURE II
 ENCLOSURE II


      STATISTICAL
      STATISTICAL TABLE FOR SECTION
                  TABLE FOR SECTION 5(b)(3)
                                     5(b)(3) -- FUNDS PUT TO
                                                FUNDS PUT TO BETTER
                                                             BETTER USE
                  AGREED TO
                  AGREED  TO IN A MANAGEMENT
                                  MANAGEMENT DECISION
                                                   DECISION

                                                          Number ofof
                                                          Number           Dollar Value
                                                                           Dollar Value of
                                                                                        of
                                                          Audit Reports    Recommendations
                                                                           Recommendations
 A.      Audit reports for
                       for which
                           which final
                                  final action3
                                        actiorr' had
         not been taken
                   taken by the commencement
                                commencement of    of
         the reporting
             reporting period
                       period.                                         0              0

         Aiidit reports for which final action
         Audit reports                  action had
         not been taken for new reports
                                  reports issued
         during the reporting
         during     reporting period
                               period with potential
                                            potential
         funds put to better
                      better use
                                                                   0                  0
B.
B.      Audit  reports on which management
        Audit reports           management
        decisions4 were made
        decisions" were  made during
                               during the
                                      the reporting
                                          reporting
        period
        period                                                     0                  0

C.      Audit reportsfor
        Audit reportsfor which
                          which final
                                 final action
                                       action was
        taken during the reporting,
                         reporting, including:
                                    including:

        ( i.)
          L)    Dollar value of recommendations
                Dollar value    recommendations
                that were actually
                          actually completed
                                   completed                       0                  0

        (ii.)
        (ii.)   Dollar value of recommendations
                Dollar value of recommendations

                that management
                     management has subsequently
                                           subsequently
                concluded
                concluded should not or could not
                be implemented
                be                    completed
                   implemented or completed                        0                  0

D.      Audit reports
              reports for which no final action has
        been taken
             taken by the end of the reporting
                                     reporting period
                                               peiiod              0                  0




3 Same definition as in Enclosure 1.
3 Same definition as in Enclosure 1.
4 Same definition as in Enclosure 1.
4 Same definition as in Enclosure 1.
